                     U.S. DEPARTMENT OF JUSTICE
                      ANNUAL SPECIAL-PURPOSE
                        FINANCIAL STATEMENTS
                           FISCAL YEAR 2009

                    OFFICE OF THE INSPECTOR GENERAL
                       COMMENTARY AND SUMMARY

       This audit report contains the Annual Special-Purpose Financial
Statements, also known as the Closing Package Financial Statements, of the
U.S. Department of Justice (Department) for the fiscal years (FY) ended
September 30, 2009, and September 30, 2008. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed the Department’s
audit in accordance with U.S. generally accepted government auditing
standards. The audit resulted in an unqualified opinion on the FY 2009 financial
statements. An unqualified opinion means that the financial statements present
fairly, in all material respects, the financial position and the results of the
entity’s operations in conformity with U.S. generally accepted accounting
principles. For FY 2008, the Department also received an unqualified opinion on
its special-purpose financial statements (OIG Report No. 09-07).

        The Department’s special-purpose financial statements were prepared in
accordance with Volume I, Part 2 – Chapter 4700 of the U.S. Department of the
Treasury’s Treasury Financial Manual (TFM). Their purpose is to assist the U.S.
Department of the Treasury in preparing the U.S. Government Financial Report,
by reclassifying the Department’s general purpose financial statements into a
standard format that will be consolidated with other federal agencies, and
reporting the Department’s intragovernmental balances by federal agency to
facilitate elimination of agency to agency transactions.

      For FY 2009, the Independent Auditors’ Report on Special-Purpose
Financial Statements did not identify any significant deficiencies in internal
control over financial reporting or significant instances of non-compliance with
laws and regulations.

      The OIG reviewed KPMG LLP’s report and related documentation and
made necessary inquiries of its representatives. Our review, as differentiated
from an audit in accordance with U.S. generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the Department’s special-purpose financial statements, conclusions
about the effectiveness of internal control, or conclusions on the Department’s
compliance with the TFM. KPMG LLP is responsible for the auditors’ report dated
November 16, 2009, and the conclusions expressed in the report. However, our
review disclosed no instances where KPMG LLP did not comply, in all material
respects, with U.S. generally accepted government auditing standards.
